Audit Report




OIG-07-012
Management Letter for Fiscal Year 2006 Audit of the
Federal Financing Bank’s Financial Statements
November 15, 2006




Office of
Inspector General
Department of the Treasury
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                              November 15, 2006


            MEMORANDUM FOR BRIAN D. JACKSON, CHIEF FINANCIAL OFFICER
                           FEDERAL FINANCING BANK

            FROM:                 Michael Fitzgerald
                                  Acting Deputy Assistant Inspector General
                                   for Financial Management and Information
                                   Technology Audits

            SUBJECT:              Management Letter for Fiscal Year 2006 Audit of the
                                  Federal Financing Bank’s Financial Statements


            I am pleased to transmit the attached management letter in connection with the
            audit of the Federal Financing Bank’s (FFB) Fiscal Year (FY) 2006 financial
            statements. We contracted with the independent certified public accounting firm
            KPMG LLP to audit FFB’s financial statements for FY 2006. The contract required
            that the audit be performed in accordance with generally accepted government
            auditing standards; applicable provisions of Office of Management and Budget
            Bulletin No. 06-03, Audit Requirements for Federal Financial Statements; and the
            GAO/PCIE Financial Audit Manual.

            As part of its audit, KPMG LLP issued and is responsible for the accompanying
            management letter that discusses other matters involving internal control over
            financial reporting and its operation that were identified during the audit, but were
            not required to be included in the audit reports.

            In connection with the contract, we reviewed KPMG LLP’s letter and related
            documentation and inquired of its representatives. Our review disclosed no
            instances where KPMG LLP did not comply, in all material respects, with generally
            accepted government auditing standards.
Page 2


Should you have any questions, please contact me at (202) 927-5789.

Attachment

cc:   Donald V. Hammond
      Vice President, FFB

      Roger Kodat
      Vice President and Treasurer, FFB
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




November 10, 2006



Inspector General, U.S. Department of the Treasury, and the
Fiscal Assistant Secretary of the U.S. Department of the Treasury:

We have audited the financial statements of the Federal Financing Bank (the Bank), for the year ended
September 30, 2006, and have issued our report thereon dated November 10, 2006. In planning and
performing our audit of the financial statements of the Bank, we considered internal control in order to
determine our auditing procedures for the purpose of expressing our opinion on the financial statements
and not to provide assurance on internal control. We have not considered internal control since the date of
our report.

During our audit, we noted certain matters involving internal control and other operational matters that we
present for your consideration. These comments and recommendations are summarized in Exhibit I and
have been discussed with the appropriate members of management and are intended to improve internal
control or result in other operating efficiencies. We also provide in Exhibit II the status of the comments
and recommendations included in our letter arising from the fiscal year 2005 audit.

Our audit procedures are designed primarily to enable us to form an opinion on the financial statements,
and therefore, may not bring to light all weaknesses in policies or procedures that may exist. We aim,
however, to use our knowledge of the Bank gained during our work to make comments and suggestions
that we hope will be useful to you.

This report is intended solely for the information and use of the Bank’s management, the U.S. Department
of the Treasury’s Office of Inspector General, the U.S. Government Accountability Office, OMB, and the
U.S. Congress, and is not intended to be, and should not be, used by anyone other than these specified
parties.




                                KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                a member of KPMG International, a Swiss association.
                                                                                                Exhibit I

                                      Federal Financing Bank
                                   Comments and Recommendations
                                        September 30, 2006


1.   Premium Amortization

     The Bank is required to calculate and record amortization of the premium on the borrowings from
     the Bureau of the Public Debt using the interest method in accordance with the accounting standards
     and the Bank’s accounting policies. The Bank did not record amortization for the period of July 1,
     2005 through September 30, 2005. The Bank recorded the amortization of the premium on
     borrowings in June and December at the time of the interest payment dates, but the Bank did not
     record an adjustment at year end. As of September 30, 2005, the Bank should have recorded
     amortization of $13.7 million for the period of July 1, 2005 through September 30, 2005.

     Recommendation
     We recommend that the Bank develop and implement year-end procedures to ensure that
     amortization is recorded for the entire fiscal year.

     Management’s Response
     Management concurs with the finding and recommendation. Prior to the most recent debt limit
     related transactions between the Office of Personnel Management and the Bank, the Bank had few if
     any occurrences of debt premiums and discounts to record. Transactions of that nature were not
     anticipated with the Bank’s accounting system; therefore, the accounting for the amortization of
     premiums and discounts is handled manually leading to a potential source of human error. The Bank
     has implemented procedures to address the process until the accounting system is updated to
     automate the activity.

2.   Prepayment Error

     The Bank did not properly calculate the premium/discount on certain prepayments of loans to the
     Rural Utilities Services (RUS). This resulted because the Bank used rates that were not in
     accordance with the rates in the related promissory notes. Management performed an analysis of the
     prepayments and determined that the Bank under-collected $25.8 million from its customers and
     underpaid the Secretary of Treasury by $20.7 million. Management is working with its customers
     and the Secretary of Treasury to determine whether the Bank will collect from its customers and
     reimburse the Secretary of Treasury.

     Recommendation
     We recommend that the Bank require that a second person compare the prepayment rate stipulated in
     the promissory note to the rate in the financial system to ensure that the proper premium/discount is
     calculated and document the review and approval on the prepayment memo.

     Management’s Response
     Management concurs with the finding and recommendation. The Bank will compare the terms from
     the physical note in the files to the database to ensure that the terms are recorded properly. In
     addition, the Bank will incorporate a second person to review the prepayment terms and calculation.




                                                   2
                                                                                               Exhibit I

                                      Federal Financing Bank
                                   Comments and Recommendations
                                        September 30, 2006


3.   Policy to Deactivate Users

     The Bank has not defined the period of time a user account for the accounting system may be
     inactive before being disabled by system administrators in accordance with NIST SP 800-53,
     Recommended Security Controls for Federal Information Systems. Of the 14 active Bank users, we
     noted that all users had logged on to the system within the last 5 business days of the date we
     performed our testing.

     Recommendation
     We recommend that the Bank formally define a realistic period of time a user account can be
     inactive before being disabled by Bank system administrators and document this policy in the system
     security plan.

     Management’s Response
     Management concurs with the finding and recommendation. The system hosting the accounting
     system is under the control of U.S. Department of the Treasury’s Information Technology
     department, which provides hosting services to the Bank along with several other customers.
     Management has formally requested that the U.S. Department of the Treasury’s Information
     Technology department design and execute a software change that automatically disables a user
     account that has been dormant for 90 days.

4.   System Development Methodology and Configuration Management Plan

     The Bank does not have a formally documented system development methodology or configuration
     management plan in place in accordance with NIST SP 800-64, Security Considerations in the
     Information System Development Life Cycle.

     Recommendation
     We recommend that the Bank continue its efforts in developing a system development methodology
     and a configuration management plan. The system development methodology should describe
     programming naming conventions, a description of the system development phases and what is to be
     performed in each, procedures for handling emergency programming changes, application test
     procedures, and development, test, and production of Access Control Lists (ACLs) and other areas.

     Management’s Response
     Management concurs with the finding and recommendation. A development process is currently
     under way, with assistance of a third-party provider, to document a system development
     methodology as part of an overall information technology system restructuring. This first stage is a
     series of three steps scheduled to be completed over the next 12 months, toward the evaluation,
     documentation, and design of a test tool to assist in-house development work. Out of this we expect
     to have improved documentation of the system design and a practiced system development
     methodology which will be utilized as the standard for the Bank.




                                                   3
                                                                                                  Exhibit II

                                           Federal Financing Bank
                                   Status of Prior Year Recommendations
                                             September 30, 2006




Prior Year Recommendations                      Current Year Status

1. Financial Reporting Standards                This comment has been closed.

2. System Development Methodology and           This comment has not been corrected and is repeated as
   Configuration Management Plan                  comment 4.

3. Interest Credit                              This comment has been corrected.

4. Review of Journal Entries                    This comment has been corrected.




                                                    4
